               DEPARTMENT OF
               DEPARTMENT OF HEALTH
                             HEALTH & HUMAN SERVICES
                                    & HUMAN SERVICES                                                        Office
                                                                                                            Office of
                                                                                                                   of Inspector
                                                                                                                       InspectorGeneral
                                                                                                                                General

(""g
.,4                                                      MAY-442009
                                                         MAY-   2009                                        Washington, D.C.
                                                                                                            Washington, D.C. 20201

                                                                                                                             20201




   TO:
   TO: RaynardRaynard
               S. Kington,    M.D.,
                      S. Kington,    Ph.D.
                                  M.D., Ph.D.
                           Acting Director

                           Acting Director



                                                     ~l2r~
                           National Institutes of Health
                          National Institutes of 





   FROM:                   Daniel R. Levinson
                           Inspector General


   SUBJECT:                Follow-Up Review of Procurements
   SUBJECT: Follow-Up Review of                      Procurements      Made
                                                             Made by the National by  the National
                                                                                  Institutes of    Institutes of Health for
                           the   Department
                           the Department of 
 of Defense (A-03-08-03000)


   The attached final report provides the results of           of our follow-up review of
                                                                                        of procurements made by
   the   National       Institutes
   the National Institutes of 
         of Health, Information Technology   Acquisition
                                                                            Acquisition and
                                                                                         and Assessment
                                                                                             Assessment Center
   (the Center), for the Department of Defense (Defense).
   (the Center), for the Deparment of 





   The Center acquires certain information technology equipment and services                services for
                                                                                                      for Defense
                                                                                                           Defense through
   task orders
           orders awarded
                      awardedusing usingaaGovernmentwide
                                           Governentwide acquisitionacquisition contract
                                                                                 contract (the
                                                                                           (the Contract).
                                                                                                Contract). Section
                                                                                                             Section 817 of
   the Deparment
         Departmentof       ofDefense
                                 Defense Authorization
                                         AuthorizationAct      Actfor
                                                                    for Fiscal
                                                                        Fiscal Year
                                                                               Year 2007
                                                                                      2007 (the
                                                                                            (the Act)
                                                                                                  Act) required
                                                                                                        required the
                                                                                                                 the Offices
                                                                                                                     Offices
   of
   of  Inspector       General
       Inspector General (OIG) of  (OIG) of the   Department
                                            the Deparment of 
      of Health and Human Services and Defense to
   jointly review the policies and procedures for these Defense purchases and to determine
   compliance with applicable applicable procurement
                                          procurement requirements.
                                                              requirements. In In their
                                                                                  their prior
                                                                                        prior reports,
                                                                                              reports, both
                                                                                                         both OIGs
                                                                                                              OIGs reported
   instances
   instances of 
 of   noncompliance. Accordingly, the Act required the OIGs to conduct follow-up
                       noncompliance.      Accordingly,         the  Act  required  the OIGs   to conduct   follow-up
   reVIews.
   reviews.

   Our objectives were
                   were to
                        to determine whether the Center implemented the recommendations made in
   our previous report and
                       and complied with (1) appropriations statutes and financial
                                                                          fmancial management
   regulations and
               and (2)
                   (2) acquisition regulations and Contract provisions
                                                            provisions for awards made on behalf of
                                                                                                 of
   Defense.

   The
   The Center initiated
                      initiated significant corrective actions but did not fully implement the
   recommendations
   recommendations in our previous report related to the use of                         of operations and maintenance (O&M)
   funds
   funds instead of research, research, development,
                                             development, test,     test, and
                                                                          and evaluation
                                                                               evaluation (RDT&E)
                                                                                           (RDT &E)funds
                                                                                                      fundsand
                                                                                                            andthe
                                                                                                                 theuse
                                                                                                                     useofoffunds
                                                                                                                             fuds
   for  equipment         and    services      that   were     provided
   for equipment and services that were provided after the period of 
      after the period of performance  for which  the
   funds
   funds were obligated.

   During our current review      review period, the Center complied with appropriations statutes and financial
                                                                                                            financial
   management            regulations
   management regulations for 27 of 
    for 27  of the
                                                    the 33
                                                        33 task orders reviewed  but may   not have  complied  for the
   remaining
   remaining 66 task    task orders.
                               orders. Specifically, the Center paid
                                                                   paid $3.7
                                                                         $3.7 million for equipment
                                                                              milion for  equipment and services
   that   were    provided        after the  period
   that were provided after the period of performance for which the fuds were
                                                     of performance  for which the  funds  were obligated.
                                                                                                 obligated. The
Page 2 – Raynard S. Kington, M.D., Ph.D.


Center generally complied with acquisition regulations and Contract provisions for the five new
task orders reviewed. However, the Center did not always maintain adequate documentation
with respect to competition, award decisions, and contractor monitoring, and the Center
exercised a task order option that may not have filled an existing need of the Government. After
these errors occurred, the Center implemented improved controls or took other corrective
actions.

We recommend that the Center:

   •   request the Defense Comptroller to provide a final decision on the use of $1.2 million of
       O&M funds instead of RDT&E funds for three task orders identified in our previous
       review that remain unresolved,

   •   work with Defense to resolve funds ($1.4 million identified in our previous review and
       $3.7 million identified in our current review) that were used for equipment and services
       provided after the period of performance for which the funds were obligated,

   •   work with Defense to determine whether the contractor provided the full level of services
       in the base year for one task order, and

   •   determine whether options to task orders fill an existing need of the Government before
       awarding the options.

In comments on our draft report, NIH concurred with our recommendations. NIH stated that for
those areas under its control, it had taken action or was planning corrective measures in
conjunction with Defense.

Pursuant to the Freedom of Information Act, 5 U.S.C. § 552, Office of Inspector General reports
generally are made available to the public to the extent that information in the report is not
subject to exemptions in the Act. Accordingly, this report will be posted on the Internet at
http://oig.hhs.gov.

If you have any questions or comments about this report, please do not hesitate to call me, or
your staff may contact Lori S. Pilcher, Assistant Inspector General for Grants, Internal Activities,
and Information Technology Audits, at (202) 619-1175 or through e-mail at
Lori.Pilcher@oig.hhs.gov. Please refer to report number A-03-08-03000 in all correspondence.


Attachment


cc:
Dennise March
Director of Acquisition Program Support
Department of Health and Human Services
             OFFICE OF
        INSPECTOR GENERAL




    FOLLOW-UP REVIEW OF
 PROCUREMENTS MADE BY THE
NATIONAL INSTITUTES OF HEALTH
          FOR THE
   DEPARTMENT OF DEFENSE




                    Daniel R. Levinson
                     Inspector General

                        May 2009
                      A-03-08-03000
                    Office of Inspector General
                                      http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as
amended, is to protect the integrity of the Department of Health and Human Services (HHS)
programs, as well as the health and welfare of beneficiaries served by those programs. This
statutory mission is carried out through a nationwide network of audits, investigations, and
inspections conducted by the following operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting
audits with its own audit resources or by overseeing audit work done by others. Audits examine
the performance of HHS programs and/or its grantees and contractors in carrying out their
respective responsibilities and are intended to provide independent assessments of HHS
programs and operations. These assessments help reduce waste, abuse, and mismanagement and
promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS,
Congress, and the public with timely, useful, and reliable information on significant issues.
These evaluations focus on preventing fraud, waste, or abuse and promoting economy,
efficiency, and effectiveness of departmental programs. To promote impact, OEI reports also
present practical recommendations for improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of
fraud and misconduct related to HHS programs, operations, and beneficiaries. With
investigators working in all 50 States and the District of Columbia, OI utilizes its resources by
actively coordinating with the Department of Justice and other Federal, State, and local law
enforcement authorities. The investigative efforts of OI often lead to criminal convictions,
administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG,
rendering advice and opinions on HHS programs and operations and providing all legal support
for OIG’s internal operations. OCIG represents OIG in all civil and administrative fraud and
abuse cases involving HHS programs, including False Claims Act, program exclusion, and civil
monetary penalty cases. In connection with these cases, OCIG also negotiates and monitors
corporate integrity agreements. OCIG renders advisory opinions, issues compliance program
guidance, publishes fraud alerts, and provides other guidance to the health care industry
concerning the anti-kickback statute and other OIG enforcement authorities.
                             Notices

       THIS REPORT IS AVAILABLE TO THE PUBLIC
                 at http://oig.hhs.gov

Pursuant to the Freedom of Information Act, 5 U.S.C. § 552, Office of
Inspector General reports generally are made available to the public to
the extent that information in the report is not subject to exemptions in
the Act.

 OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

The designation of financial or management practices as questionable, a
recommendation for the disallowance of costs incurred or claimed, and
any other conclusions and recommendations in this report represent the
findings and opinions of OAS. Authorized officials of the HHS operating
divisions will make final determination on these matters.
                                  EXECUTIVE SUMMARY

BACKGROUND

The National Institutes of Health (NIH), Information Technology Acquisition and Assessment
Center (the Center), acquires certain information technology equipment and services for the
Department of Defense (Defense) through task orders awarded using a Governmentwide
acquisition contract (the Contract). To ensure adequate competition, the Center selected 45
prime contractors that it considered qualified to receive awards for “assisted” acquisitions. In
assisted acquisitions, Defense transfers funds to the Center to acquire equipment and services.
The Contract requires, among other things, that the Center solicit bids from all prime contractors
eligible to perform the tasks required for each award. The Center also must follow all
appropriations statutes; financial management regulations; and acquisition laws and regulations,
including those specific to Defense awards.

Section 817 of the Department of Defense Authorization Act for Fiscal Year 2007 (the Act), as
amended, P.L. No. 109-364 (Oct. 17, 2006), required the Offices of Inspector General (OIG) of
the Department of Health and Human Services and Defense to jointly review the policies and
procedures for Defense purchases made by the Center and to determine compliance with
applicable appropriations statutes and procurement requirements. In their prior reports, both
OIGs reported instances of noncompliance. Accordingly, the Act required the OIGs to conduct
follow-up reviews.

We limited our follow-up review of compliance with appropriations statutes and financial
management regulations to 33 assisted acquisitions (28 task orders covered in our previous
review and 5 additional task orders awarded or funded during fiscal year 2007) for which the
Center disbursed approximately $284 million in Defense funds between fiscal years 2002 and
2007. We limited our follow-up review of compliance with acquisition regulations and Contract
provisions to the five additional task orders.

OBJECTIVES

Our objectives were to determine whether the Center:

    •   implemented the recommendations made in our previous report and

    •   complied with (1) appropriations statutes and financial management regulations and
        (2) acquisition regulations and Contract provisions for awards made on behalf of
        Defense.

SUMMARY OF FINDINGS

The Center initiated significant corrective actions but did not fully implement the
recommendations in our previous report related to the use of operations and maintenance (O&M)
funds instead of research, development, test, and evaluation (RDT&E) funds and the use of funds




                                                 i
for equipment and services that were provided after the period of performance for which the
funds were obligated.

During our current review period, the Center complied with appropriations statutes and financial
management regulations for 27 of the 33 task orders reviewed but may not have complied for the
remaining 6 task orders. Specifically, the Center paid $3.7 million for equipment and services
that were provided after the period of performance for which the funds were obligated. The
Center generally complied with acquisition regulations and Contract provisions for the five new
task orders reviewed. However, the Center did not always maintain adequate documentation
with respect to competition, award decisions, and contractor monitoring, and the Center
exercised a task order option that may not have filled an existing need of the Government. After
these errors occurred, the Center implemented improved internal controls or took other
corrective actions.

RECOMMENDATIONS

We recommend that the Center:

   •   request the Defense Comptroller to provide a final decision on the use of $1.2 million of
       O&M funds instead of RDT&E funds for three task orders identified in our previous
       review that remain unresolved,

   •   work with Defense to resolve funds ($1.4 million identified in our previous review and
       $3.7 million identified in our current review) that were used for equipment and services
       provided after the period of performance for which the funds were obligated,

   •   work with Defense to determine whether the contractor provided the full level of services
       in the base year for one task order, and

   •   determine whether options to task orders fill an existing need of the Government before
       awarding the options.

NATIONAL INSTITUTES OF HEALTH COMMENTS

In comments on our draft report, NIH concurred with our recommendations. NIH stated that for
those areas under its control, it had taken action or was planning corrective measures in
conjunction with Defense. NIH’s comments are included as Appendix D.




                                               ii
                                                  TABLE OF CONTENTS
                                                                                                                                    Page

INTRODUCTION........................................................................................................................1

          BACKGROUND ...............................................................................................................1
              Defense Authorization Act Oversight....................................................................1
              Governmentwide Acquisition Contracts................................................................1
              Availability of Federal Appropriations..................................................................2

          OBJECTIVES, SCOPE, AND METHODOLOGY...........................................................3
               Objectives ..............................................................................................................3
               Scope ....................................................................................................................3
               Methodology ..........................................................................................................4

FINDINGS AND RECOMMENDATIONS ..............................................................................5

          IMPLEMENTATION OF PREVIOUS RECOMMENDATIONS ...................................5

          COMPLIANCE WITH APPROPRIATIONS STATUTES AND FINANCIAL
            MANAGEMENT REGULATIONS............................................................................6
              Federal Requirements ............................................................................................6
              Funds Used Outside the Period of Performance ....................................................7
              Actions Taken by the Center and Defense.............................................................7

          COMPLIANCE WITH ACQUISITION REGULATIONS AND CONTRACT
            PROVISIONS ..............................................................................................................8
              Competition............................................................................................................8
              Award Decisions....................................................................................................9
              Contractor Monitoring ...........................................................................................9
              Contract Changes .................................................................................................10

          RECOMMENDATIONS.................................................................................................11

         NATIONAL INSTITUTES OF HEALTH COMMENTS...............................................12

APPENDIXES

          A – RESOLUTION OF PREVIOUS FINDING ON COMPLIANCE WITH BONA FIDE
                NEEDS STATUTE

          B – NONCOMPLIANCE WITH BONA FIDE NEEDS STATUTE IDENTIFIED IN
                CURRENT REVIEW

          C – NONCOMPLIANCE WITH ACQUISITION REGULATIONS AND CONTRACT
                PROVISIONS IDENTIFIED IN CURRENT REVIEW

          D – NATIONAL INSTITUTES OF HEALTH COMMENTS


                                                                   iii
                                              INTRODUCTION

BACKGROUND

Defense Authorization Act Oversight

Section 817 of the Department of Defense Authorization Act for Fiscal Year 2007 (the Act), as
amended, P.L. No. 109-364 (Oct. 17, 2006), required the Offices of Inspector General (OIG) of
the Department of Health and Human Services (HHS) and the Department of Defense (Defense)
to jointly review the policies and procedures for Defense purchases made by the National
Institutes of Health (NIH) and to determine compliance with applicable acquisition requirements.
To meet this requirement, HHS OIG and Defense OIG each reviewed and reported on those
issues that affected its Department’s operations.

In our January 2008 report on purchases made by NIH for Defense, we determined that NIH did
not always comply with appropriations statutes and procurement requirements. 1 A Defense OIG
report likewise determined that NIH did not always comply with applicable requirements. 2
Pursuant to section 817(a)(2) of the Act, if the OIGs’ reviews showed that NIH had not
complied, the OIGs were required to conduct a follow-up review that focused on NIH’s fiscal
year 2007 procurements for Defense.

We limited our follow-up review to “assisted” acquisitions, in which Defense transferred funds
to the NIH Information Technology Acquisition and Assessment Center (the Center) to acquire
information technology equipment and services. 3 On June 13, 2008, we provided an interim
status report on the results of our follow-up review to the House and Senate Committees on
Armed Services.

Governmentwide Acquisition Contracts

Governmentwide acquisition contracts are indefinite-delivery/indefinite-quantity contracts
available for use by all Federal agencies. Pursuant to the Clinger-Cohen Act, 4 the Office of
Management and Budget authorized the Center to administer Governmentwide acquisition
contracts.


1
 “Procurements Made by the National Institutes of Health for the Department of Defense” (A-03-07-03000), issued
January 10, 2008.
2
“FY [fiscal year] 2006 DoD Purchases Made Through the National Institutes of Health” (D2008-022), issued
November 15, 2007.
3
 Defense OIG jointly reviewed assisted acquisitions at the Center and independently visited eight Defense facilities
with a total of nine task orders for information technology services. In addition, Defense OIG reviewed “directed”
acquisitions made by Defense facilities through the Center. In directed acquisitions, Defense does not transfer funds
to NIH but instead places task orders itself through NIH contracts (Federal Acquisition Regulation (FAR) 4.601).
4
 The Federal Acquisition Reform Act of 1996 and the Information Technology Management Reform Act of 1996,
Divisions D and E of the National Defense Authorization Act for Fiscal Year 1996 (P.L. No. 104-106, amended by
P.L. No. 104-208), were combined to become the Clinger-Cohen Act (40 U.S.C. § 1401 et seq.).


                                                         1
The Center acquires information technology equipment and services in nine task areas through a
Governmentwide contract, “Chief Information Officer – Solutions and Partners 2 Innovations”
(the Contract). 5 To ensure adequate competition, the Center selected 45 prime contractors that it
considered qualified to receive awards for assisted acquisitions. The Contract requires, among
other things, that the Center solicit bids for task orders from all prime contractors eligible to
perform in the task area applicable to each award. The Center also must follow all
appropriations statutes; financial management regulations; acquisition laws; and acquisition
regulations, including the FAR, the HHS Acquisition Regulation, and, for Defense awards, the
Defense Federal Acquisition Regulation Supplement (DFARS).

Although the Center may award task orders for periods of 1 year or less, it generally awards task
orders that include one base period and multiple option periods. Each task order base and option
period modification is a separate contractual “period of performance” and may be awarded only
after determining that funds are available.

Availability of Federal Appropriations

An agency may obligate funds authorized by a Federal appropriation only during the period of
availability of the funds. Specifically, 31 U.S.C. § 1501(a) provides that funds may be obligated
under contract only when there is documentation of “a binding agreement between an agency
and another person (including an agency) that is . . . executed before the end of the period of
availability for obligation of the appropriation or fund . . . .” Unless otherwise specified in the
appropriation, the period of availability for most funds is the fiscal year in which the
appropriation was made. Operations and maintenance (O&M) funds have a period of availability
of 1 fiscal year. Research, development, test, and evaluation (RDT&E) funds have a 2-year
period of availability. No-year funds are not limited by a period of availability.

The Anti-Deficiency Act prohibits the Government from obligating or expending funds in
advance of an appropriation for that purpose, or in excess of such appropriation, unless
authorized by law (31 U.S.C. § 1341(a)(1)). In addition, an appropriation may be used only for
the purpose appropriated (31 U.S.C. § 1301(a)) and only for bona fide needs arising in the year
of the appropriation (31 U.S.C. § 1502).

Notwithstanding the above requirements, Congress has enacted legislation that permits an
agency to contract for goods or services across fiscal years. For example, 10 U.S.C. § 2410a
permits Defense agencies to enter into a contract for severable services during one fiscal year for
services that extend into the next fiscal year and to obligate the entire contract to the
appropriation for the first fiscal year. However, section 2410a requires that the performance
period must “begin in one fiscal year and end in the next.” If the entire period of performance
falls in the second fiscal year, section 2410a does not apply and there has been a violation of the
bona fide needs statute.



5
 The nine task areas are Chief Information Officer support; outsourcing; information technology operations and
maintenance; integration services; critical infrastructure protection and information assurance; digital Government;
enterprise resource planning; clinical support, research, and studies; and software development.


                                                          2
In addition, an agency may enter into a multiyear contract if “funds are available and obligated
for such contract, for the full period of the contract or for the first fiscal year in which the
contract is in effect . . .” (41 U.S.C. § 254c(a)(1)). Similar authority is given to Defense agencies
under 10 U.S.C. §§ 2306b and 2306c. This multiyear contracting authority provides an
exception to the Anti-Deficiency Act and the bona fide needs statute because it permits agencies
to bind the Government in advance of the availability of funds and authorizes agencies to pay
incrementally over the period of performance. It should be noted that the multiyear contract
provision does not apply to the Center’s task orders with options that must be exercised before
the Government becomes obligated (FAR 17.103). Thus, the provision would not apply to the
task orders under review. Even if section 254c did apply, funds under a multiyear contract (at
least sufficient for the first fiscal year) must be obligated and performance begun in the first year
of the contract (41 U.S.C. § 254c(a)(1)).

OBJECTIVES, SCOPE, AND METHODOLOGY

Objectives

Our objectives were to determine whether the Center:

        •   implemented the recommendations made in our previous report and

        •   complied with (1) appropriations statutes and financial management regulations and
            (2) acquisition regulations and Contract provisions for awards made on behalf of
            Defense.

Scope

We reviewed 33 assisted acquisitions for which the Center disbursed approximately $284 million
in Defense appropriated funds between fiscal years 2002 and 2007. The 33 acquisitions included
the 28 task orders covered in our previous review and 5 additional task orders awarded or funded
during fiscal year 2007. 6 Defense provided the Center with O&M funds for 27 of the 33 task
orders, RDT&E funds for 4 task orders, no-year funds for 3 task orders, and procurement funds
for 2 task orders. 7 For all 33 acquisitions, we reviewed all payments and adjustments made since
our previous review for compliance with appropriations statutes and financial management
regulations. We limited our review of compliance with acquisition regulations and Contract
provisions to the five additional task orders.

We reviewed the Center’s controls for obligating and expending funds, documenting the task
order award and oversight processes, and acquiring information technology equipment and
services for Defense. We did not independently assess or test acquisition procedures at Defense.
We performed our fieldwork at the Center in Rockville, Maryland, from February through
June 2008.

6
 One of the five additional task orders was awarded during fiscal year 2006; however, it was not included in the
previous review because no payments were made during fiscal year 2006.
7
    Defense funded three task orders with O&M and other appropriations.


                                                          3
Methodology

To accomplish our objectives, we:

   •   reviewed appropriations and acquisition laws and regulations and Contract requirements;

   •   reviewed interagency agreements to determine whether they clearly defined
       responsibilities between Center and Defense contracting personnel;

   •   analyzed the statement of work, funding documents (including the “Military
       Interdepartmental Purchase Request”), and payment invoices to determine whether funds
       provided by Defense were the correct type of funds, were properly obligated and
       expended during their period of availability, and were used in accordance with
       appropriations statutes;

   •   reviewed task order files to determine whether the Center documented Defense purchases
       in accordance with acquisition regulations and Contract provisions;

   •   reviewed task order files to determine whether the Center received documentation stating
       that Defense had performed market research before submitting task orders to the Center
       and whether the results were documented in a written acquisition plan and statement of
       work;

   •   reviewed task order files to determine whether all eligible prime contractors were
       solicited and whether competition was obtained in accordance with acquisition
       regulations and Contract provisions;

   •   reviewed task order files to determine whether legal reviews of task order awards,
       performed by legal counsel or contracting officers, were documented, including sole-
       source justifications, cost proposals, task order award documents, task order
       modifications, quality assurance surveillance plans, funding documentation, and invoice
       payments;

   •   reviewed pricing analyses to determine whether fair and reasonable prices were obtained,
       the selection of the contractor was properly documented, and a written “determination
       and findings” was prepared for every time-and-materials award;

   •   reviewed task order files to determine whether task orders were within the scope of the
       Contract and fulfilled an existing need of the Government; and

   •   reviewed task order files to determine whether the Center monitored contractor
       performance by designating qualified contracting officer technical representatives in
       writing and ensuring that monitoring was conducted.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain


                                               4
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objectives.

                                 FINDINGS AND RECOMMENDATIONS

The Center initiated significant corrective actions but did not fully implement the
recommendations in our previous report related to the use of O&M funds instead of RDT&E
funds and the use of funds for equipment and services that were provided after the period of
performance for which the funds were obligated.

During our current review period, the Center complied with appropriations statutes and financial
management regulations for 27 of the 33 task orders reviewed but may not have complied for the
remaining 6 task orders. 8 Specifically, the Center paid $3.7 million for equipment and services
that were provided after the period of performance for which the funds were obligated. The
Center generally complied with acquisition regulations and Contract provisions for the five new
task orders reviewed. However, the Center did not always maintain adequate documentation
with respect to competition, award decisions, and contractor monitoring, and the Center
exercised a task order option that may not have filled an existing need of the Government. After
these errors occurred, the Center implemented improved internal controls or took other
corrective actions.

IMPLEMENTATION OF PREVIOUS RECOMMENDATIONS

In our previous report, we recommended that the Center:

       •    work with Defense to resolve the obligation of $11.8 million in O&M funds instead of
            RDT&E funds for 4 task orders,

       •    work with Defense to resolve the use of $25.4 million for equipment and services that
            were not provided during the period of performance for 13 task orders,

       •    comply with Federal appropriations statutes and financial management regulations on
            obligating and expending funds, and

       •    improve controls for documenting the task order award and oversight processes.

Although the Center did not fully implement all of these recommendations, it took significant
corrective actions.

       •    The Center contacted Defense contracting officer technical representatives to resolve the
            use of $11.8 million in O&M funds instead of RDT&E funds for four task orders. For
            one of the four task orders, the Defense Comptroller decided that O&M funds totaling
            $10.6 million were appropriate to use, but the Center had not requested or received a

8
    The six task orders were included in our previous review.


                                                            5
           Defense Comptroller decision resolving the remaining three task orders totaling
           $1.2 million.

       •   The Center, with the assistance of the HHS and Defense OIGs, resolved $24 million of
           the $25.4 million for equipment and services that were provided after the period of
           performance for which the funds were obligated. The remaining $1.4 million was still
           unresolved. As shown in Appendix A:

               o The Center resolved $24 million by using existing funds provided during fiscal
                 years 2002 through 2007 to redistribute $15.5 million in obligations and
                 expenditures and to return $11.7 million in Defense funds that were no longer
                 needed. The Center also received $3.2 million in Defense funds to resolve
                 funding shortfalls.

               o The remaining $1.4 million included three unresolved categories. 9 The Center
                 decided, but had not yet taken action, to return $638,556 in Defense funds that
                 were no longer needed and to request $705,623 in Defense funds to resolve
                 funding shortfalls. The Center had not decided how to resolve an additional
                 $1,442,758.

       •   The Center implemented controls established by Defense for funding awards and options.
           Defense discontinued the advance funding of task orders, and the Center began
           forwarding vendor invoices to Defense for review and approval. Defense now
           determines the correct appropriation to use and transfers sufficient funds to pay the
           vendor invoices and the Center’s service charge.

       •   The Center improved controls for documenting the task order award and oversight
           processes by developing and implementing four standard documents: the task order
           requirements package checklist, the statement of work package checklist, the solution
           recommendation document package checklist, and the quality assurance surveillance plan
           template for the contracting officer’s technical representative.

COMPLIANCE WITH APPROPRIATIONS STATUTES AND
FINANCIAL MANAGEMENT REGULATIONS

Federal Requirements

The “bona fide needs statute” (31 U.S.C. § 1502) requires that “[t]he balance of an appropriation
or fund limited for obligation to a definite period is available only for payment of expenses
properly incurred during the period of availability or to complete contracts [task orders] properly
made within that period . . . .”




9
    The unresolved amount equaled $1,375,691: ($638,556) + $705,623 + ($1,442,758).


                                                        6
Congress has given Defense some flexibility in applying the bona fide needs statute to severable
services contracts. 10 Under 10 U.S.C. § 2410a, Defense may, during a particular fiscal year,
enter into a 1-year service contract that extends into the next fiscal year and may obligate the
entire contract to the appropriation for the first fiscal year. However, section 2410a requires that
the performance period begin in one fiscal year and end in the next. If the entire period of
performance falls in the second fiscal year, section 2410a does not apply and a violation of the
bona fide needs statute has occurred.

O&M funds are 1-year funds that must be obligated for contracts for services that meet a
bona fide need of the fiscal year for which they are appropriated. As discussed above, under
section 2410a, Defense may obligate the full amount of a service contract in 1 year, and
performance may extend into the next year. However, O&M appropriations for the year are not
available to fund services that do not commence until the following year. An agency may not
use unobligated funds remaining from 1 fiscal year to fund contracts for a period of performance
that begins in the subsequent fiscal year.

Funds Used Outside the Period of Performance

During fiscal year 2007, the Center complied with appropriations statutes and financial
management regulations for 27 of the 33 task orders reviewed but may not have complied for the
remaining 6 task orders. For the six task orders, which were incrementally funded throughout
the period of performance, the Center expended funds totaling $3.7 million that had been
authorized for one period of performance to pay for equipment and services contracted for and
provided after the periods of performance for which the funds were obligated. (See Appendix B
for details.)

The use of funds appropriated and obligated for one period of performance and used in a
subsequent period of performance violates the bona fide needs statute. Defense may resolve
these violations by adjusting its accounts (assuming sufficient funds are available) to record the
expenditures against the correct fiscal year appropriations. This will require the Center and
Defense to research the proper use of funds totaling $3.7 million for the six task orders and to
determine the correct period of performance for these funds. Further research on this issue is
beyond the scope of our review.

Actions Taken by the Center and Defense

During our current review period, the Center advised us that it had implemented internal controls
over the obligation of funds and payments for the appropriate periods of performance. These
controls, developed by Defense, improved oversight and helped ensure compliance with
appropriations statutes and financial management regulations. We verified that the Center
received funds only after it had submitted invoices to Defense. The errors identified above
occurred before the Center and Defense had implemented the improved controls.


10
  A severable contract is one for services that are continuing and recurring in nature (as opposed to a contract for a
single deliverable that cannot be subdivided) and that are generally charged to the appropriation for the year in
which the services were rendered.


                                                           7
COMPLIANCE WITH ACQUISITION REGULATIONS
AND CONTRACT PROVISIONS

During our current review period, the Center continued to generally comply with acquisition
regulations and Contract provisions. Our review of available documentation showed that the
Center had corrected our previous finding that acquisition planning was not adequately
documented; the Center’s files for the five task orders reviewed contained all required
acquisition-planning documents. However, as detailed in Appendix C, the Center did not:

     •   document the receipt of no-bid responses for four of the five task orders,

     •   document the basis for award of four of the five task orders, or

     •   document contractor monitoring or prepare a quality assurance surveillance plan for any
         of the five task orders.

Also, for one task order, we were unable to determine whether the contractor provided services
in accordance with the original task order or with certain proposed changes. In addition, the
contracting officer exercised an option under the task order that may not have filled an existing
need of the Government.

Competition

When using Governmentwide acquisition contracts, the contracting officer must provide
qualified contractors with “a fair opportunity to be considered for each order” (FAR
16.505(b)(1)). 11 Section G.5 of the Contract requires that the contracting officer solicit bids
from all eligible prime contractors. Each solicited contractor must respond with a bid for the
award or with a no-bid response stating why it did not bid. No-bid responses help ensure that all
eligible contractors received the solicitation and inform the Center why contractors decided not
to bid.

For the five task orders reviewed, the Center solicited all eligible contractors. However, for four
of the five task orders, the Center did not document receipt of no-bid responses and the task
order files were not always complete. We also identified this condition in our previous review.

In September 2007, the Center addressed our finding by establishing a policy to obtain no-bid
responses from solicited contractors and began enforcing the Contract requirement that a
contractor choosing not to bid must submit a no-bid response to each solicitation. To verify that
the Center obtained no-bid responses from solicited contractors, we reviewed three additional
task orders that the Center awarded for Defense after our review period. We found that the
Center obtained the no-bid responses and filed them in the task order files.




11
 FAR 16.505(b)(2) provides specific statutory exceptions to this rule. Only one of the task orders in this review
met the requirements for an exception.


                                                         8
Award Decisions

FAR 16.505(b)(5) requires the contracting officer to document the rationale for award decisions
in the task order file. Specifically, the contracting officer should document the rationale for the
selection of the contractor and the price of each award, the basis for the award, and any
consideration of cost and noncost factors in making the award decision. To comply with the
FAR, section G.5(6) of the Contract requires that customers, including Defense, prepare a
solution recommendation documentation package for each award.

Pursuant to the Contract, Defense provided the Center with a written solution recommendation
documentation package that documented the basis for each award determination. The Center
reviewed each package for completeness and agreement with the Defense decision; however, the
Center did not sign the package or document its review, modification, or agreement for four of
the five task orders reviewed. We also identified this condition in our previous review.

The Center developed several checklists to document award decisions and satisfy the
requirement of FAR 16.505(b)(5). These checklists, finalized since our prior review, require the
Center to document its review and agreement with the award decisions made by Defense.
However, the Center did not fully implement these checklists until after it had awarded the four
task orders. For the remaining task order, the file included signed copies of the task order
requirement package checklist and the solution recommendation documentation package
checklist.

To verify that the Center used these checklists for Defense task orders, we reviewed three
additional task orders that the Center awarded after our review period. We found that the Center
had documented the rationale for award decisions by completing the checklists.

Contractor Monitoring

FAR 1.602-2 requires that the contracting officer request and consider the advice of specialists as
appropriate. As supplemented by DFARS 201.602-2, the contracting officer may delegate onsite
contractor monitoring responsibilities to a contracting officer technical representative qualified
by training and experience commensurate with the position. The technical representative’s
duties and responsibilities must be outlined in a written delegation letter from the contracting
officer.

The Center did not always comply with the requirements of the FAR and DFARS regarding the
documentation of contractor monitoring by the technical representative.

   •   For two of the five task orders reviewed, the files did not document that the designated
       technical representative had the necessary training and experience to monitor the
       contractor’s performance.

   •   For one of the five task orders reviewed, the files did not describe the technical
       representative’s duties.




                                                 9
Additionally, the technical representative should prepare a quality assurance surveillance plan
specifying work performed and the method of surveillance (FAR 46.401). The technical
representative should provide the surveillance plan to the contracting officer (FAR 46.103).
However, the task order files did not contain a copy of the plan for any of the five task orders
reviewed. We also identified this condition in our previous review.

During our current review period, but after the five task orders were awarded, the Center
included a quality assurance surveillance plan template in its statement of work package template
for use by the technical representative. Because the Center implemented the template after we
completed our fieldwork, we did not verify use of the template.

Contract Changes

On October 27, 2006, the Center awarded a firm-fixed-price task order for $11.6 million:
$3.7 million for the base year and a total of $7.9 million for two 1-year options. We were unable
to determine whether the contractor provided base-year services in accordance with the original
task order or in accordance with certain proposed changes. Therefore, we could not determine
whether $3.7 million was a reasonable amount for the work actually performed in the base year.
In addition, the contracting officer exercised the first option without determining that the option
filled an existing need of the Government and was the most advantageous method of fulfilling a
need, considering price and other factors.

Proposed Changes to the Statement of Work

The task order provided that “[o]nly the Contracting Officer has authority to (1) direct or
negotiate any changes in the Statement of Work . . . .” Accordingly, any changes in the
statement of work must be authorized by the contracting officer and documented in the task
order file.

Three months after the base period began, Defense and its contractor agreed to propose a change
in the statement of work, and on January 19, 2007, the contractor provided a copy of the proposal
to the Center and Defense for consideration. The proposal would have (1) reduced help-desk
support for the base period from 12 months to 60 days, after which the contractor would
discontinue help-desk support, and (2) increased system administration by adding an optional
task for which Defense would determine the actual performance. A subsequent proposal
submitted by the contractor on April 6, 2007, removed the help-desk function and related costs
and eliminated the proposed additional task.

The task order file did not contain a copy of the April 6, 2007, proposal12 or documentation that
the contracting officer had reviewed either proposal or considered making any modification to
the base-year task order. In accordance with the task order, the contractor’s monthly bill did not
itemize each task performed. Consequently, we were unable to determine whether the contractor
performed in accordance with the original task order or in accordance with the proposed


12
 Although the task order file did not include a copy of the April 6, 2007, proposal, the copy that we obtained from
Defense OIG showed that the Center was included in the distribution.


                                                         10
changes. According to Defense OIG, the help-desk function was not available after the first
60 days of the base year. The contractor was paid the full $3.7 million for the base year.

Exercise of the First Option

FAR 17.207 requires that, before exercising an option, the contracting officer must determine
whether the option fills an existing need of the Government and is the most advantageous
method of fulfilling a need, considering price and other factors. The regulation also requires the
contracting officer to determine and document that the option was exercised in accordance with
the original terms and conditions evaluated as part of the base award, including any price and
work requirements.

On October 27, 2007, the contracting officer exercised the first option at the original, evaluated
price of $3.9 million and certified that the option filled an existing need of the Government and
was the most advantageous method of fulfilling a need, considering price and other factors.
However, the changes proposed by Defense and the contractor indicated that the option did not
fill an existing need of the Government. The contracting officer did not consider those proposed
changes in exercising the option.

Actions Taken by the Center

On September 22, 2008, 7 months after we presented these issues to the Center, the contracting
officer issued a modification to the first option that reduced staffing for help-desk support,
increased planning support provided by subject matter experts, and renegotiated pricing. This
modification resulted in a $1,072,206 reduction in the cost of the first option for services that did
not fill a need and were not provided. The contracting officer also decided not to exercise the
second option.

RECOMMENDATIONS

We recommend that the Center:

   •   request the Defense Comptroller to provide a final decision on the use of $1.2 million of
       O&M funds instead of RDT&E funds for three task orders identified in our previous
       review that remain unresolved,

   •   work with Defense to resolve funds ($1.4 million identified in our previous review and
       $3.7 million identified in our current review) that were used for equipment and services
       provided after the period of performance for which the funds were obligated,

   •   work with Defense to determine whether the contractor provided the full level of services
       in the base year for one task order, and

   •   determine whether options to task orders fill an existing need of the Government before
       awarding the options.



                                                 11
NATIONAL INSTITUTES OF HEALTH COMMENTS

In comments on our draft report, NIH concurred with our recommendations. NIH stated that for
those areas under its control, it had taken action or was planning corrective measures in
conjunction with Defense. NIH’s comments are included as Appendix D.




                                             12
APPENDIXES
APPENDIX A
                                                          APPENDIX B


             NONCOMPLIANCE WITH BONA FIDE NEEDS STATUTE
                   IDENTIFIED IN CURRENT REVIEW
                          As of June 12, 2008

Task Order
 Number        Fiscal Year 2006   Fiscal Year 2007     Total

  C2204           $237,693                  $0        $237,693
  C2215                   0            361,064         361,064
  C2228             710,857            812,467        1,523,324
  C2232             748,987            664,557        1,413,544
  C2377              81,100                  0            81,100
  C2380             116,271                  0         116,271

  Total          $1,894,908         $1,838,088       $3,732,996
                                                                                      APPENDIX C


               NONCOMPLIANCE WITH ACQUISITION REGULATIONS
           AND CONTRACT PROVISIONS IDENTIFIED IN CURRENT REVIEW


                                  Category Code and Description

A     The task order file did not contain a record of the solicited contractors’ no-bid responses.
B     The Center contracting officer did not document the award decision by signing the solution
      recommendation documentation package.
C     The task order file did not document the contracting officer technical representative’s
      training and experience.

D     The task order file did not define the contracting officer technical representative’s duties.

E     The task order file did not contain the contracting officer technical representative’s quality
      assurance surveillance plan.

F     The task order file did not document whether the contracting officer considered proposed
      changes to the statement of work.



 Task                                     Category Code
 Order                                                                                      Total
Number           A            B            C            D            E            F         Errors

    2430         A            B            C                         E                          4

    2494         A            B            C            D            E                          5

    2520         A            B                                      E            F             4

    2524         A            B                                      E                          3

    2537                                                             E                          1

 Total           4            4            2            1            5            1           17
APPENDIX D
  Page 1 of 3
APPENDIX D
  Page 2 of 3
APPENDIX D
  Page 3 of 3
